                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A12070048                                                                          Page 1 of 1



                  NSF OIG received an allegation that an IP A 1 violated conflict of interest rules and the
         anti-representation statute by contacting the program directors 2 for an award to his home
         institution3 while still an IPA at NSF. An OGC official, 4 who was informed ofthe email,
         instructed directorate officials 5 to terminate the IP A. In addition NSF contacted our office in
         regard to this matter.

               We reviewed the relevant email and interviewed the two POs and a directorate official. 6
         We determined that the agency's termination of the IP A adequately protected the interests of
         NSF. Accordingly, this case is closed with no further action taken.




         4


         6




NSF OIG Form 2 (11/02)
